        Fiscal Year 2010
 Inspector General Statement
             on the
Social Security Administration’s
    Major Management and
   Performance Challenges

          A-02-11-11131




          November 2010
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o nfid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d a b us e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le info rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f Ins p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d p rop o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a g e n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o pe ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e nc o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                            SOCIAL SECURITY
                                   November 8, 2010

The Honorable Michael J. Astrue
Commissioner

Dear Mr. Astrue:

The Reports Consolidation Act of 2000 (Pub. L. No. 106-531) requires that Inspectors
General provide a summary and assessment of the most serious management and
performance challenges facing Federal agencies and the agencies’ progress in
addressing them. This review is enclosed. The Reports Consolidation Act requires that
the Social Security Administration (SSA) place the final version of this Statement in its
Annual Performance and Accountability Report.

In Fiscal Year (FY) 2010, we continued our focus on the management and performance
challenges from the previous year. Those challenges are listed below.

• Implement the American Recovery               • Improve Customer Service
  and Reinvestment Act Effectively              • Invest in Information Technology
  and Efficiently                                 Infrastructure to Support Current and
• Reduce the Hearings Backlog and                 Future Workloads
  Prevent its Recurrence                        • Strengthen the Integrity and
• Improve the Timeliness and Quality              Protection of the Social Security
  of the Disability Process                       Number
• Reduce Improper Payments and                  • Improve Transparency and
  Increase Overpayment Recoveries                 Accountability

My office will continue to focus on these issues in FY 2011. We will also continue to
assess SSA’s operations and the environment in which it operates to ensure that our
reviews focus on the most salient issues facing the Agency.

I congratulate you on the progress made in FY 2010 in addressing these challenges. I
look forward to working with you to continue improving the Agency’s ability to address
these challenges and meet its mission efficiently and effectively.

                                                Sincerely,



                                                Patrick P. O’Carroll, Jr.
                                                Inspector General



           SOCIAL SECURITY ADMINISTRATION          BALTIMORE MD 21235-0001
   Implement the American Recovery and Reinvestment Act
                Effectively and Efficiently
On February 17, 2009, the President signed into law the American Recovery and
Reinvestment Act of 2009 (ARRA) (Pub. L. No. 111-5). The Social Security
Administration (SSA) was provided funds under ARRA to address three major efforts.

• $500 million to replace SSA’s National Computer Center (NCC).
• $500 million to process disability and retirement workloads, including information
   technology (IT) acquisitions and research in support of these workloads.
• $90 million to reimburse costs for processing a one-time economic recovery
   payment (ERP) of $250 to millions of qualified individuals receiving Social Security
   and Supplemental Security Income (SSI) payments. (On August 10th, section 318 of
   Pub. L. No. 111-226 rescinded $47 million of the funds SSA received to administer
   the $250 ERPs.)

We believe the timely replacement of the NCC and the capacity of SSA’s computer
systems continue to be major challenges for the Agency. SSA’s NCC houses the
infrastructure that supports the Social Security programs provided to the public and
other services provided to Federal, State, international, and private agencies. In
Fiscal Year (FY) 2010, we issued multiple reports on SSA’s efforts to replace the NCC
with a new data center. In our April 2010 Congressional Response Report, The Social
Security Administration’s Data Center Alternatives, we evaluated the elements and the
assessment techniques SSA’s contractors used to determine the best location for the
new data center. We questioned the costs and risks that had been assigned to the
different options for building the data center. We asked the Agency to reexamine the
timeframe required for on-campus property readiness (zoning/property acquisitions).
We also asked SSA to reassess the foundation for many of its decisions when
comparing the on- and off-site options. We made several recommendations related to
costs and risks. SSA agreed with our recommendations.

The purchase of the site where the new data center will be built has been delayed. SSA
planned to purchase the required land in FY 2010. Now, SSA does not expect to
purchase the site until FY 2011, thus delaying the start of construction. The timely
completion of the new data center is critical to SSA’s ability to continue to provide the
level of service the American public expects and needs.

The Agency used ARRA funds to hire staff and fund overtime work to address critical
workloads. SSA’s challenge was to hire and train sufficient personnel in a short period
of time to enhance the Agency’s ability to eliminate the hearings backlog and prevent its
recurrence, improve the speed and quality of its disability process, improve retiree and
other core services, and preserve the public’s trust in its programs.




FY 2010 IG Statement on SSA’s Major Management Challenges (A-02-11-11131)               1
SSA’s Office of Operations planned to use its $251 million in ARRA funds to hire
employees and for overtime work by employees. The Office of Disability Adjudication
and Review (ODAR) was allocated $30 million in FY 2009 and another $93 million in
FY 2010 to hire administrative law judges (ALJ) and support staff. SSA allocated
$87 million of ARRA funds for FY 2009 and 2010 labor costs of disability determination
services (DDS) employees and additional overtime, including indirect costs. The labor
costs included hiring 300 new DDS employees.

SSA also had a challenge to ensure its contractors paid with ARRA funds reported
accurate information to FederalReporting.gov. Contract recipients were required to
report, among other things, (1) the total amount of recovery funds invoiced and (2) a
narrative description of the employment effect of work funded by ARRA, including an
estimate of the number of jobs created and the number of jobs retained by the prime
contractor in the United States and outlying areas. In our report, Contractors’ Reporting
of Jobs Created Using American Recovery and Reinvestment Act Dollars, we
determined eight of the nine contractors who received ARRA funds reviewed reported
jobs created or retained in a manner inconsistent with the Office of Management and
Budget’s (OMB) guidance. The contractor’s errors resulted from their misinterpretation
of OMB’s guidance.

Finally, SSA’s assistance in providing one-time ERPs of $250 to certain adult Old-Age,
Survivors and Disability Insurance (OASDI) beneficiaries and SSI recipients continues
to be a challenge. SSA had to ensure the beneficiaries met a number of criteria,
including that they resided in 1 of the 50 States, the District of Columbia, Puerto Rico,
Guam, the U.S. Virgin Islands, American Samoa, or the Northern Mariana Islands. In
addition, to be eligible for the one-time payments, the beneficiaries had to be eligible for
benefits for any of the 3 months before the month of enactment (that is, November
2008, December 2008, and January 2009). If individuals received both OASDI and SSI,
they would receive only one $250 payment. In addition, SSA had to process each
payment, prepare payment files for the Department of the Treasury (Treasury), annotate
payments to its program files, and prepare associated beneficiary notices. Also, SSA
was responsible for handling post-certification actions (for example, non-receipt reports,
returned payments, and stop-payment actions) for the ERPs issued to its beneficiaries.

In our September 2010 report, Economic Recovery Payments for Social Security and
Supplemental Security Income Beneficiaries, we found 71,688 beneficiaries were
deceased before the payment certification date and received an estimated $18 million in
ERPs. However, in 86 percent of these cases, SSA had no knowledge before the
payment certification date that the beneficiaries were deceased. Also, ARRA did not
provide SSA the authority to reclaim erroneous ERPs issued to deceased beneficiaries.
An additional 17,348 beneficiaries were incarcerated and received about $4.3 million in
ERPs. Most of these beneficiaries were eligible for ERPs because ARRA did not
prohibit incarcerated beneficiaries from receiving ERPs if they were otherwise eligible
for benefits.




FY 2010 IG Statement on SSA’s Major Management Challenges (A-02-11-11131)                 2
SSA Has Taken Steps to Address This Challenge
In response to ARRA and OMB guidance, SSA developed an ARRA Risk Management
Plan. The Plan outlined the major challenges and risk mitigation activities facing SSA in
implementing the requirements of ARRA. The challenges fell into five major categories:
Overall Recovery Act Implementation, One-Time ERP Administrative Expenses,
One-Time ERP Payments, Disability and Retirement Workloads, and Replacement of
the NCC. The major areas were further defined by challenges specific to each
category. SSA developed risk mitigation activities to address each identified challenge
and continues to implement them.

To meet its challenge to replace the NCC and increase systems capacity, SSA
continues to make progress. In FY 2010, SSA, in coordination with the General
Services Administration (GSA), completed an IT growth study that included projections
of SSA’s future needs for space, power, and cooling. Further, SSA and GSA began to
identify potential sites and develop the Program of Requirements for the new data
center.

To meet its challenge to hire thousands of employees and train them, SSA developed
appropriate staffing plans based on OMB guidance. For example, the plans provided
the required information on how the Agency would spend ARRA funds. However,
SSA’s cost allocation methodology will most likely overstate actual ARRA costs.
Further, the ARRA performance measures did not identify all anticipated benefits.

In reference to SSA’s challenge to ensure its ARRA fund recipients properly reported
accurate information to FederalReporting.gov, the Agency implemented procedures
requiring that contracting officers review contractor reports at FederalReporting.gov for
consistency with award information, significant errors, and material omissions.
Contracting officers review data posted to FederalReporting.gov for data that do not
appear to be accurate.

In reference to SSA’s continued challenge to provide ERPs to certain beneficiaries, the
Agency has made considerable progress. It facilitated the issuance of ERPs to more
than
50 million eligible individuals in May 2009, which injected about $13 billion into the
economy. SSA certified these payments to facilitate Treasury’s disbursement within
120 days after the legislation was enacted on February 17, 2009. However, should
another ERP be enacted into law, we recommend SSA (1) review its records to identify
deceased and incarcerated beneficiaries before certifying their eligibility to receive an
ERP, (2) work with Treasury to obtain the authority to reclaim ERPs issued to deceased
beneficiaries, and (3) ensure ERPs are not issued to beneficiaries who are incarcerated
at the time of payment.




FY 2010 IG Statement on SSA’s Major Management Challenges (A-02-11-11131)                   3
Reduce the Hearings Backlog and Prevent its Recurrence
At the forefront of congressional and Agency concern is the timeliness of SSA’s
disability decisions at the hearings adjudicative level. The average processing time at
the hearings level has increased over the years—from 293 days at the end of FY 2001
to 426 days at the end of FY 2010. Additionally, the pending hearings workload grew to
approximately 705,000 by the end of FY 2010—up from about 392,000 cases at the end
of FY 2001. SSA also faces an increasing workload due to a rise in the number of initial
disability applications, which eventually leads to an increase in the number of hearing
requests.

Since May 2007, the Agency has been implementing the Commissioner’s plan to
eliminate the backlog of hearing requests and prevent its recurrence. The
Commissioner’s plan focuses on (1) compassionate allowances, (2) improving hearing
office procedures, (3) increasing adjudicatory capacity, and (4) increasing efficiency with
automation and improved business processes. SSA has realized some success over
the last few years. For example, average processing time at the hearings level was
514 days in FY 2008, 491 days in FY 2009, and 426 days in FY 2010. Similarly, the
pending hearings workload was about 761,000 cases in FY 2008, about 723,000 cases
in FY 2009, and about 705,000 cases at the end of FY 2010. The Agency’s goal is to
eliminate the hearings backlog by 2013 and improve average processing time to
270 days. Achieving these goals will depend on a number of factors, including available
resources and expected workloads.

Compassionate Allowances. The compassionate allowances initiative, implemented
nationwide in October 2008, seeks to identify cases where the disease or condition is so
consistently devastating that SSA can presume the claimant is disabled once a valid
diagnosis is confirmed. SSA launched the expedited decision process with
50 conditions—25 rare diseases and 25 cancers. SSA added another 38 conditions to
this list on May 1, 2010.

Improve Hearing Office Procedures. SSA has two initiatives in place to improve
hearing office procedures—reducing aged cases and adjudication of cases by senior
attorneys. Under the aged claim initiative, SSA focused on eliminating cases
1,000 days or older in FY 2007, 900 days or older in FY 2008, 850 days or older in
FY 2009, and 825 days or older in FY 2010. This initiative has refocused the hearings
process to ensure hearing offices are processing the oldest cases first. Under the
Senior Attorney program, senior attorneys issue fully favorable on-the-record decisions
to expedite the decision and conserve ALJ resources for the more complex cases and
cases that require a hearing. SSA reported senior attorneys had issued approximately
54,000 decisions in FY 2010.

Increase Adjudicatory Capacity. SSA has six initiatives aimed at increasing
adjudicatory capacity. One initiative is hiring new ALJs. In FY 2009, ARRA provided
SSA $500 million to assist with increases in retirement and disability workloads, of
which $123 million was allocated to ODAR. Using these funds, ODAR hired 35 new


FY 2010 IG Statement on SSA’s Major Management Challenges (A-02-11-11131)                 4
ALJs and 550 additional support staff in FY 2009. In FY 2010, ODAR hired 229 ALJs
and approximately 1,200 support staff. ODAR also continued to build new hearing
offices around the country, with 13 new offices opened in FY 2010. In addition, ODAR
is now operating five National Hearing Centers. ODAR opened a National Case
Assistance Center in McLean, Virginia, on May 28, 2010, along with a fifth National
Hearing Center and National Case Assistance Center in St. Louis, Missouri, on July 6,
2010.

Increase Efficiency with Automation and Improved Business Process. SSA has
more than two dozen initiatives related to automation and business processes. Such
initiatives include shared access to electronic files, improved management training,
enhanced electronic business processes, and a new quality assurance program. One
initiative is expanding the use of video equipment at hearings to increase ALJ
productivity and decrease ALJ travel. This video initiative also includes a
Representative Video Project, which allows claimant representatives to use their video
equipment to participate in hearings from their own offices.

SSA Has Taken Steps to Address This Challenge

In March 2010, the Commissioner announced that the number of pending hearings at
the Agency was at its lowest level since June 2005. In a July 2010 review, we reported
SSA should be able to achieve its FY 2013 pending hearings backlog goal if it has
reliably projected the key factors, such as hearing level receipts, ALJ availability levels,
ALJ productivity levels, and senior attorney adjudicator decisions through 2013. We
also acknowledged that the Agency has varying control over these factors, and a small
variance in these projections could cause SSA to exceed the targeted number of cases
in its 2013 pending hearings backlog. As a result, we noted that continued assessment
of the factors, appropriate adjustments, and communication of Agency needs to other
parties, including the Congress and the Office of Personnel Management, will be
essential to keep this endeavor on track.

We will continue to work with SSA as it proceeds with its initiatives. For example, in our
June 2010 review of hearing office staffing and performance, we found that ODAR’s
staffing ratio was 5.1, exceeding the Agency’s national goal of 4.5 staff per ALJ. We
also found most hearing offices exceeded the decision writer-per-ALJ goal. However,
we identified a number of offices that still needed attention to meet the Agency’s goals,
and found the staffing ratio methodology needed to be updated. We also found that
centralized units were assisting hearing offices with staffing shortages and
recommended their expansion.




FY 2010 IG Statement on SSA’s Major Management Challenges (A-02-11-11131)                  5
Improve the Timeliness and Quality of the Disability Process
SSA is facing a considerable increase in initial and reconsideration claims. At the end
of FY 2008, there were over 565,000 initial claims pending. In FY 2010, initial claims
pending had grown to over 842,000, an increase of 51 percent over the FY 2008
year-end pending level. In addition, reconsideration claim receipts at the end of 2010
were 12 percent higher than the same period in FY 2009.

In addition to the increased receipts, some DDSs are facing high attrition rates, hiring
freezes, and employee furloughs, all of which affect SSA’s ability to process the
disability workload. In our November 2009 review on the effect of State budget issues
on SSA’s disability programs, we reported that State furloughs affected the number of
disability determinations some DDSs will make during FY 2010. As a result of the
furloughs, approximately 69,000 cases were delayed in processing, resulting in about
$126 million in benefit payments being delayed to newly disabled claimants. In
July 2010, the Agency submitted legislation to Congress to end furloughs of federally
paid State disability workers. That legislation would prohibit States, without the
Commissioner’s prior authorization, from reducing the number of State personnel who
make disability determinations for Social Security or the hours they work below the
amount the Agency authorizes.

The increase in initial disability applications also forces the dedication of DDS resources
to processing initial applications rather than conducting full medical continuing disability
reviews (CDR). In our March 2010 review on CDRs, we reported that a backlog of over
1.5 million full medical CDRs would exist at the end of FY 2010. As a result, we
estimated SSA will have made benefit payments of between $1.3 and $2.6 billion from
Calendar Years 2005 through 2010 that could have potentially been avoided if DDSs
had conducted full medical CDRs in the backlog when they became due.

SSA Has Taken Steps to Address This Challenge
In April 2010, the Commissioner testified about SSA’s plan to reduce the initial claims
backlog by FY 2014. To do so, SSA developed a multi-year strategy that includes

   • increasing staffing in the DDS and Federal disability processing components,
   • improving efficiency through automation,
   • expanding the use of screening tools to assist in identifying claims likely to be
     allowed, and
   • refining policies and business processes to expedite case completion.
As part of the strategy, SSA hired additional DDS employees and plans to maintain
higher DDS staffing levels over the next several years. In addition, SSA is maximizing
the use of overtime in the DDSs. SSA also created centralized units, called Extended
Service Teams (EST), in Arkansas, Mississippi, Virginia, and Oklahoma. The ESTs will
assist and take claims from the States with the highest pending levels. In FY 2010,



FY 2010 IG Statement on SSA’s Major Management Challenges (A-02-11-11131)                  6
SSA placed 280 new employees at the 4 EST sites. SSA also increased staffing levels
in the Federal disability processing components, which provide support to DDSs – hiring
about 237 additional employees. As of November 2010, we are reviewing SSA’s
strategy for reducing the initial claims backlog to an optimum pending level.

We will continue to work with SSA as it improves the disability process and addresses
its workload backlogs. We will also continue to work with SSA to address the integrity
of the disability programs through the Cooperative Disability Investigations (CDI)
program. The CDI program's mission is to obtain evidence that can resolve questions
of fraud in SSA's disability claims. The program is managed in a cooperative effort
between SSA's Offices of Operations, the Inspector General, and Disability Programs.
Since the program's inception in FY 1998 to the end of FY 2010, SSA reports that the
22 CDI units, operating in 19 States, have resulted in $1.6 billion in projected savings to
SSA's Title II and XVI disability programs and over $967 million in projected savings to
non-SSA programs.




FY 2010 IG Statement on SSA’s Major Management Challenges (A-02-11-11131)                 7
              Reduce Improper Payments and Increase
                     Overpayment Recoveries
Workers, employers, and taxpayers who fund the SSA and SSI programs deserve to
have their tax dollars effectively managed. As a result, SSA must be a responsible
steward of the funds entrusted to its care and minimize the risk of making improper
payments. SSA strives to balance its service commitments to the public with its
stewardship responsibilities. However, given the size and complexity of the programs
the Agency administers, some payment errors will occur.

SSA is responsible for issuing over $700 billion in benefit payments annually to about
60 million people. Given the large amount of dollars involved in SSA’s payments, even
the slightest error in the overall process can result in millions of dollars in over- or
underpayments. For example, according to SSA, in FY 2009,

   •   SSI overpayments were $4 billion (8.4 percent of outlays), and underpayments
       were $787 million (1.6 percent of outlays);

   •   OASDI overpayments were $2.5 billion (0.37 percent of outlays), and
       underpayments were $619 million (0.09 percent of outlays).

For FYs 2009 to 2012, SSA’s goal is to maintain OASDI payment accuracy at
99.8 percent for over- and underpayments; whereas for SSI, the Agency’s goal is to
achieve an underpayment accuracy rate of 98.8 percent and an overpayment accuracy
rate of 96 percent.

In November 2009, the President issued Executive Order 13520 on reducing improper
payments, and in March 2010, OMB issued implementing guidance. As a result, SSA
was required to prepare a report on its high-priority programs by May 19, 2010
containing the Agency’s plans for identifying and measuring improper payments,
meeting improper payment reduction targets, and ensuring that initiatives undertaken
did not unduly burden program access and participation by eligible beneficiaries. SSA
met this deadline.

SSA was also required by May 19, 2010, and every quarter thereafter, to prepare and
make available to the public a report on any high-dollar improper payments identified by
the Agency, subject to Federal privacy policies and to the extent permitted by law. SSA
issued its first quarterly report on July 30, 2010 for the quarter ending June 30, 2010. It
issued its second report on October 29, 2010 for the quarter ending September 30,
2010.

Additionally, in July 2010, the Improper Payments Elimination and Recovery Act of 2010
(Pub. L. No. 111-204) was enacted. As a result, all agencies with high-priority
programs—because they have significant improper payments—are required to intensify
their efforts to eliminate payment errors. SSA has a recovery audit program in place for
payments to contractors, but it does not have a similar program for benefit payments.


FY 2010 IG Statement on SSA’s Major Management Challenges (A-02-11-11131)                  8
The reduction of improper payments is one of SSA’s key strategic objectives. Two
powerful tools for reducing improper payments are CDRs and redeterminations.
Through completion of CDRs, SSA periodically verifies that individuals are still disabled
and entitled to disability payments. Although no overpayments or underpayments are
incurred as the result of a medical cessation due to a medical CDR, disability benefits
could be terminated earlier if more medical CDRs were scheduled. Available data
indicate that SSA saves about $10 for every $1 spent on medical CDRs. However, the
Agency has scaled back on this workload over the past several years. Similarly, SSA
decreased the number of SSI redeterminations conducted between FYs 2003 and 2009
by more than 40 percent. We estimated in a July 2009 report, Supplemental Security
Income Redeterminations, that SSA could have saved an additional $3.3 billion during
FYs 2008 and 2009 by conducting redeterminations at the same level it did in FY 2003.

SSA Has Taken Steps to Address This Challenge
SSA has identified the major causes of improper payments and has taken steps to
address them. For example, one of the major causes of improper payments in the
OASDI program is benefit computation errors. SSA developed automated tools to
address the more troublesome computation issues. A major cause of improper
payments in the SSI program is the failure of a recipient or representative payee to
provide accurate and timely reports of new or increased wages. In response, SSA
developed a large-scale monthly wage reporting system incorporating touch-tone and
voice-recognition telephone technology. SSA also uses the Access to Financial
Institutions process to reduce SSI payment errors by identifying undisclosed financial
accounts with balances that place recipients over the SSI resource limit. SSA plans to
expand the use of this process in the future.

SSA uses a variety of methods to collect the debt related to overpayments. Collection
techniques include internal methods, such as benefit withholding and billing and
follow-up. In addition, SSA uses external collection techniques authorized by the Debt
Collection Improvement Act of 1996 (Pub. L. No. 104-134) for OASDI debts and the
Foster Care Independence Act of 1999 (Pub. L. No. 106-169) for SSI debts. These
debt collection tools include the Treasury Offset Program, credit bureau reporting,
administrative wage garnishment, and Federal Salary Offset. In FY 2009, SSA
recovered $3.06 billion in overpayments at an administrative cost of $0.06 for every
dollar collected. According to SSA, the Agency will continue to improve its debt
collection program through the expansion of current debt collection initiatives as well as
the implementation of several debt collection tools.

SSA has also worked to improve its ability to prevent over- and underpayments by
implementing our audit recommendations. For example, in June 2010, we issued a
report, Manual Computations of Supplemental Security Income Payments, which
identified about $4.4 million in overpayments and about $3.7 million in underpayments
for the period July 2008 through June 2009. SSA agreed with the recommendations we
made to improve this area and had already initiated actions to correct the payment
errors identified.


FY 2010 IG Statement on SSA’s Major Management Challenges (A-02-11-11131)                9
We also issued a report in July 2010, Retroactive Title II Payments to Released
Prisoners, where we estimated SSA issued approximately $3.8 million in retroactive
payments that released prisoners were not entitled to receive. SSA agreed with our
recommendations. The Agency plans to develop and implement additional procedural
controls for retroactive payments to released prisoners.




FY 2010 IG Statement on SSA’s Major Management Challenges (A-02-11-11131)        10
                          Improve Customer Service
SSA touches the lives of virtually all Americans. SSA provides benefits when there is
the loss of a loved one, at the onset of disability, or during the transition from work to
retirement. Therefore, we agree with SSA that a high level of customer service is
essential to meet the public’s needs and expectations.

SSA acknowledges that it has struggled to maintain the level of service the American
people deserve. Many factors challenge SSA, including shifting demographics, growing
workloads, changing customer expectations, and an aging workforce. SSA is receiving
increasing numbers of retirement and disability claims. Also, SSA is finding that the
public expects it to provide services in new ways made possible by technology. Further,
the projected retirement of its employees continues to present a challenge to SSA’s
customer service capability. SSA estimates that 50 percent of its employees, including
66 percent of its supervisors, will be eligible to retire by FY 2018. This loss of
institutional knowledge may adversely affect SSA’s ability to deliver the quality service
the public expects.

Providing oversight to ensure representative payees properly manage Social Security
benefits of vulnerable beneficiaries is a critical customer service performed by SSA.
SSA appoints a representative payee to receive and manage the benefits of
beneficiaries who are incapable of managing or directing the management of their
finances because of their youth or mental or physical impairment. Our reviews continue
to identify problems with SSA’s representative payment program. Specifically, (1) SSA
did not identify aged beneficiaries who became incapable of managing their benefits
after their initial entitlement; (2) children in foster care had their benefits managed by
representative payees who were not the foster care agency or foster care parent;
(3) representative payees did not disclose previous incarcerations on their applications
to serve as payees; and (4) certain individual and organizational representative payees
had not complied with SSA’s policies and procedures.

SSA Has Taken Steps to Address This Challenge
SSA reported it has implemented various strategies to improve customer service, such
as increasing staffing, expanding the use of online and automated services, improving
telephone and field office services, reorganizing its components, and improving the
representative payment program.

Staffing. SSA reported it hired about 8,600 new employees in FY 2009—the largest
hiring effort since the creation of the SSI program over 35 years ago. In FY 2010, SSA
again hired approximately 8,600 new employees. In addition, our review of SSA’s hiring
and training of IT specialists found that SSA uses a multitude of activities to attract, hire,
train, and retain IT specialists.




FY 2010 IG Statement on SSA’s Major Management Challenges (A-02-11-11131)                    11
Online and Automated Services. One of SSA’s priorities is to provide the public with
more service options through a wide range of online and automated services. In
FY 2010, SSA introduced an online Medicare-only application. Also, SSA released a
simplified electronic version of the Adult Disability Report, which has increased
completion rates and cut the average completion time in half. Additionally, as part of
SSA’s Multilanguage Gateway, which provides access to information in 15 different
languages, it is implementing its first non-English interactive application—the
Retirement Estimator in Spanish. In response to the President’s Securing Americans’
Value and Efficiency Award, SSA plans to implement an employee suggestion that
would allow individuals to schedule appointments for service online.

Telephone Services. SSA is replacing its 800-number infrastructure with a new
system that will help improve service and increase efficiency. SSA’s national
800-number, which handles about 65 million calls a year, now offers speech recognition
that allows callers to speak their request to reduce time spent navigating through menu
prompts and error-prone, touch-tone commands. In addition, SSA is using technology
to forecast call volumes, anticipate staffing needs, and better distribute calls across the
network. As a result, SSA reported it reduced waiting times by 17 percent in FY 2010.
SSA achieved the lowest busy rate for the 800-number in FY 2010 since it began
reporting it in FY 2005. Over that 5-year period, SSA halved its busy rate from
10 percent in FY 2005 to 5 percent in FY 2010.

Field Offices and Processing Centers. To position itself for the future, SSA is
working with GSA on a new teleservice center in Jackson, Tennessee—the first to be
opened in more than a decade. In addition, SSA is implementing the Space
Modernization and Reception Transformation—an initiative to upgrade SSA’s field
offices to offer improved services such as (1) videoconferencing for individuals living in
rural areas, (2) televisions in field office reception areas to broadcast information about
SSA programs, (3) offering self-help personal computers, and (4) redesigning the
reception and interview areas to improve privacy.

Reorganization. SSA restructured existing, and established new, components to
improve the speed and quality of its processes and services. Further, SSA is realigning
several components and combining applications to address the changing needs of its
customers and to balance workloads and resources.

Representative Payee Program. SSA reported it revised the Representative Payee
Monitoring Application to capture better management information about the problems it
found and the outcomes of its reviews of representative payees. Additionally, SSA
reported it developed a new model for the representative payee accounting form,
misuse, and monitoring processes. Finally, SSA took action to increase its oversight of
representative payees who employ beneficiaries in their care by awarding a contract for
350 site reviews of employer-payees.




FY 2010 IG Statement on SSA’s Major Management Challenges (A-02-11-11131)                 12
Invest in Information Technology Infrastructure to Support
               Current and Future Workloads
Managing its current and future workloads will not be possible for SSA without the
proper IT infrastructure. The Agency uses a variety of technologies, including telephone
service, the Internet, and videoconferencing to deliver service to its customers. Today,
SSA faces the challenge of how to best use technology to meet its increasing
workloads. Congress, SSA’s Advisory Board, the Office of the Inspector General (OIG)
and others have concerns regarding the Agency’s IT infrastructure, systems continuity
and availability, system modernization efforts, IT strategic planning, and IT service
delivery.

IT Physical Infrastructure. SSA’s NCC, built in 1979, houses the infrastructure that
supports the Social Security programs provided to the public and other services
provided to Federal, State, international, and private agencies. SSA’s primary IT
investment over the next few years is the replacement of the NCC. Increased
workloads and growing telecommunication services have severely strained the NCC’s
ability to support the Agency’s business. SSA estimates that by 2012, the NCC as a
stand-alone data center will no longer be able to support the expanding workloads.
Additionally, significant structural problems and electrical capacity issues have
developed that make construction of a new primary computer center imperative.
However, the Agency has projected that its new facility cannot be operational before
2015.

Disaster Recovery Capabilities. The design and age of the NCC, as well as the
increasing workload due to the retirement of the baby boom generation, has raised
concerns about SSA’s ability to address future processing requirements. Because of
the critical systems SSA supports, an NCC outage would have a devastating effect on
both the Agency and the people it serves. In FY 2008, Lockheed Martin completed a
study of the NCC that identified infrastructure and data processing capacity issues.
These issues pose a significant risk to SSA’s continuity of operations.

Systems Modernization. Another major challenge facing SSA is the modernization of
its systems and applications. SSA’s systems modernization is constrained by multiple
underlying problems. The first problem is that the foundation of SSA’s IT infrastructure
is an outdated database management system called the Master Data Access Method
(MADAM). SSA developed MADAM in the 1980s. There is a concern that future
operating system changes may render MADAM unusable, and the technical knowledge
and skills needed to timely remedy the situation may not be available. Consequently,
future operating system changes could lead to prolonged outages. Further, the
Agency’s continued reliance on MADAM exposes it to significant risks, including delays
in its ability to improve its systems functionality.

Further, some of SSA’s legacy applications are programmed in Common Business
Oriented Language (COBOL). The use of COBOL adds additional constraints to SSA’s
modernization efforts. Studies of SSA’s use of COBOL have identified challenges


FY 2010 IG Statement on SSA’s Major Management Challenges (A-02-11-11131)              13
including cumbersome maintenance, lengthy redevelopment time, and the potential loss
of institutional knowledge as experienced COBOL programmers retire. In addition,
COBOL restricts SSA from developing more sophisticated web services to enable the
Agency to meet the growing needs of its customers and reduce customer wait times on
the telephone and in field offices.

Simple and Secure Electronic Services. Finally, SSA must provide additional
electronic services to meet the growing needs of its customers. Because of the
economic times and baby boom generation retirements, more individuals are filing for
retirement and disability benefits. SSA’s telephone services and field offices are
overwhelmed by increased workloads. Telephone and field office customer wait times
are long. Between March 1, 2009 and April 30, 2010, about 3.1 million visitors waited
more than 1 hour for service, and of those visitors, over 330,000 waited longer than
2 hours. SSA must find alternative ways of providing its customers easy to use and
secure services.

Currently, 37 percent of all retirement applications and 27 percent of initial disability
applications are filed online. In December 2009, Commissioner Astrue testified that to
keep field offices from being overwhelmed by increasing workloads, the Agency would
need to increase electronic filing to 50 percent by 2013.

SSA Has Taken Steps to Address This Challenge
IT Physical Infrastructure. SSA has taken steps to address its IT physical
infrastructure challenge. The Agency has taken or planned actions to address the
NCC’s sustainability through 2014. Moreover, in February 2009, SSA received
$500 million in ARRA funding to replace its NCC. The Agency is working with GSA to
select and purchase a site, develop a Program of Requirements, construct, and acquire
IT equipment for its new data center. SSA’s plans are to build a new data center that
will meet the Agency’s expansion needs for the long-term.

Disaster Recovery Capabilities. To help address its disaster recovery capability
challenge, SSA built a Second Support Center (SSC). The SSC is a co-processing
center for the NCC in the event of inoperability due to catastrophic events and
processes a portion of SSA’s critical and noncritical workloads. Further, SSA initiated
the Accelerated Disaster Recovery Environment (ADRE) project. In June 2010, SSA
conducted the ADRE exercise to test the Agency’s ability to recover completely from an
NCC disaster. The exercise used tapes for recovery purposes. The ADRE exercise
was designed to determine whether the critical systems would be available at the SSC if
the NCC is not available. However, until the ADRE exercise is validated and the
Agency’s disaster recovery plans are met, there is a risk of diminished service during
the recovery period should the NCC become unavailable.

Also, before October 2012, an extended disruption of service would limit the Agency’s
ability to provide service to the public within the first 7 days of a disaster. Furthermore,
until SSA tests and validates the critical NCC applications restored at the SSC at a level


FY 2010 IG Statement on SSA’s Major Management Challenges (A-02-11-11131)                 14
of processing that represents the Agency’s daily workload levels, there is a risk that the
systems will not fully function if the NCC is unavailable. In 2011, SSA plans to conduct
disaster recovery tests to determine the Agency’s ability to recover should the SSC
become unavailable.

Systems Modernization. The Agency’s strategy to address its systems modernization
challenge is to develop new IT applications with more modern programming languages.
SSA plans to modernize its old applications in the future.

SSA is converting its major program databases from MADAM to an industry-standard,
modern database management system to ensure continuity of operations and provide
more functionality and flexibility for future workloads. This conversion involves changes
to the current database structure. These enhancements will take several years to
complete. To date, SSA has successfully completed the conversion of its
Numident/Alphident and Master Earnings Files. SSA plans to convert the Supplemental
Security and Master Beneficiary Records by the end of FY 2013.

Moreover, the Agency has initiated a project to modernize its Disability Case Processing
System (DCPS). The objective of the DCPS project is to develop a single case
processing system to replace the 54 different existing systems that support the DDSs.
DCPS will integrate case analysis tools and health information technology. Also, having
a common case processing system will help to rapidly distribute policy changes and
have a positive effect on processing times and the accuracy of disability decisions.

The conversion of the Agency’s systems is not a single conversion of lines of code from
COBOL to Java. Instead, SSA is redesigning its systems to support improved service
to the American public. Further, SSA plans to transition some of its other COBOL
applications to a more modernized programming language by FY 2017.

Simple and Secure Electronic Services. To address this challenge and relieve
overburdened field offices, SSA offers over 30 electronic services. Further, SSA
researched Internet authentication solutions to secure such online initiatives as Ready
Retirement, replacement Social Security number (SSN) cards, and other automated
services.

SSA is developing Registration of Most Everyone (ROME) to register and authenticate
users and provide controlled, single sign-on access. SSA plans to use ROME to enable
members of the public to access SSA’s electronic and interactive voice response
telephone applications. ROME will position SSA to meet its strategic goals of
expanding electronic government and increasing the use of electronic services. By
increasing the functionality and scope of SSA's electronic applications and providing
strong, secure, and robust authentication protocols, the Agency hopes to channel more
members of the public toward doing business electronically.




FY 2010 IG Statement on SSA’s Major Management Challenges (A-02-11-11131)                 15
      Strengthen the Integrity and Protection of the Social
                       Security Number
In FY 2010, SSA issued approximately 17 million SSN cards and received
approximately $647 billion in employment taxes related to earnings under assigned
SSNs. Protecting the SSN and properly posting the wages reported under SSNs are
critical to ensuring eligible individuals receive the full benefits due them.

Since its inception, SSN collection and use has significantly increased nationwide.
These unique nine-digit numbers have become commonly used identifiers and, as such,
valuable as illegal commodities. Over the last decade, SSA has made significant
strides to strengthen controls in the enumeration process. Additionally, SSA has
worked to better protect SSNs in its records. However, once an SSN is assigned, SSA
has little control over the collection, use, and disclosure of this number by external
entities. For example, while the vast majority of wage reports received from employers
are accurate, SSA has had limited success correcting and posting wage reports with
erroneous employee names or SSNs. To better protect SSNs and assist SSA in
improving the accuracy of its earnings records, we believe Congress and the Agency
should continue seeking measures to limit the collection, use, and disclosure of SSNs—
in addition to other measures discussed below.

We commend the Agency for the numerous improvements in its enumeration process.
Nevertheless, we continue to have concerns regarding SSN assignment and protection.
For example, the Agency has no authority to curb the unnecessary collection and use of
SSNs. Our audit and investigative work has taught us that the more SSNs are
unnecessarily used, the higher the probability they could be used to commit crimes
throughout society. We believe SSA should support legislation to limit public and
private entities’ collection and use of SSNs, and to improve the protection of this
information when obtained. We are also concerned that some noncitizens who are
authorized to work by the Department of Homeland Security (DHS), but will only be in
the United States for a few months, are permitted to obtain SSNs that are valid for life.
Further, we believe controls over the issuance of SSN Verification Printouts are not
sufficient to prevent improper attainment of these sensitive documents and disclosure of
personally identifiable information (PII). As such, SSA should continue its efforts to
safeguard and protect PII.

Finally, SSA is devoting resources to develop an online system for issuing replacement
SSN cards. While we support the Agency’s decision to offer more services online to
enhance customer service, we are concerned about the potential for unscrupulous
individuals to manipulate such a system. As such, we encourage the Agency to
proceed carefully with this initiative until proper authentication controls are in place.

Maintaining the integrity of the SSN and Social Security programs also involves properly
posting earnings reported under SSNs. Accurate earnings records are used to
determine both the eligibility for Social Security benefits and the amount of those
benefits. SSA spends scarce resources correcting earnings data when incorrect


FY 2010 IG Statement on SSA’s Major Management Challenges (A-02-11-11131)               16
information is reported. The Earnings Suspense File (ESF) is the Agency’s record of
annual wage reports for wage earners whose names and SSNs cannot be matched to
SSA’s records. As of October 2009, the ESF had accumulated approximately
296 million wage items for Tax Years (TY) 1937 through 2007, representing about
$836 billion in wages. Our review of ESF data compared to the total wages reported by
employers showed the ESF continued to grow in both real and relative terms. For
instance, in TY 2000, the ESF represented about 3.8 percent of total reported wage
items and grew to 4.3 percent by TY 2007.

While SSA cannot control all the factors associated with erroneous wage reports, it can
improve wage reporting by informing employers about potential SSN misuse cases,
identifying and resolving employer reporting problems, encouraging greater use of the
Agency’s employee verification programs, and enhancing the employee verification
feedback to provide employers with sufficient information on potential employee issues.
SSA can also improve coordination with other Federal agencies with separate, yet
related, mandates. For example, the Agency needs to work with the Internal Revenue
Service to achieve more accurate wage reporting.

SSA Has Taken Steps to Address This Challenge
Despite these challenges, we believe SSA’s improved procedures have reduced its risk
of improperly assigning these important numbers. Some of SSA’s more notable
enumeration improvements include (1) establishing Enumeration Centers in many
States that focus exclusively on assigning SSNs and issuing SSN cards; (2) requiring
field office personnel processing SSN applications to use a Web-based Intranet
application known as the SSN Application Process, which combines the functionality of
the SS-5 Assistant and the Modernized Enumeration System; and (3) strengthening the
standards and requirements for identity documents presented with SSN applications to
ensure the correct individual obtains the correct SSN.

SSA has also taken steps to reduce the size and growth of the ESF. The Agency has
issued annual Social Security Statements, increased its electronic wage reporting,
expanded the use of its Social Security Number Verification Service (SSNVS) program,
and continued to support DHS in administering the E-Verify program.

Issued Annual Social Security Statements: The Agency issues annual Social
Security Statements to individuals so they can review their earnings records for
accuracy and completeness. SSA mails the Statements to all workers age 25 and older
who are not yet receiving Social Security benefits. In FY 2010, SSA issued about
152 million Social Security Statements.

Increased Electronic Wage Reporting: SSA has been working to eliminate paper
wage reports while migrating to an electronic earnings record process because paper
wage reports are more error-prone, labor-intensive, and expensive to process. SSA
encourages employers to use Business Services Online to file Wage and Tax




FY 2010 IG Statement on SSA’s Major Management Challenges (A-02-11-11131)             17
Statements (Forms W-2) for their employees electronically. In FY 2010, SSA processed
over 182 million Form W-2s electronically.

Expanded Use of SSNVS: SSA has been working with the business community to
encourage additional employers to use SSNVS. SSNVS allows employers to
determine, almost instantaneously, whether an employee’s reported name and SSN
match SSA’s records. Increased use of SSNVS helps reduce fraud and improves the
accuracy of individuals’ earnings records. For FY 2010, SSNVS processed over
104 million verifications for approximately 39,500 registered employers.

Collaborated with DHS: SSA has continued to support E-Verify, a DHS program that
allows employers to electronically verify whether newly hired employees are authorized
to work in the United States under immigration law. With SSA’s assistance, DHS has
made program improvements. For example, in September 2007, E-Verify's Photo
Screening Tool was implemented, which allows employers to check the photograph on
the new hire's Employment Authorization Document or Permanent Resident Card
against the 15 million images stored in DHS immigration databases. Further, the Photo
Screening Tool helps employers identify instances of identity theft in the employment
eligibility process. In addition, in February 2009, DHS began incorporating passport
data into E-Verify to help verify citizenship status information in the event of a mismatch
with SSA for citizens who present a U.S. passport during the Employment Eligibility
Verification (Form I-9) process. As of the end of FY 2010, about 227,000 employers,
representing about 802,000 locations, were enrolled to use E-Verify. These employers
submitted approximately 16.9 million queries during this period.




FY 2010 IG Statement on SSA’s Major Management Challenges (A-02-11-11131)                18
             Improve Transparency and Accountability
There have been a number of efforts to make Federal agencies more transparent and
accountable. For example, the Chief Financial Officers Act of 1990 (Pub. L. No.
101-576) provides for the production of complete, reliable, timely, and consistent
financial information for use by the executive branch of the Government and Congress
in the financing, management, and evaluation of Federal programs. The Government
Performance and Results Act of 1993 (GPRA) (Pub. L. No. 103-62) sought to improve
Federal program effectiveness and public accountability by promoting a new focus on
results, service quality, and customer satisfaction. Lastly, the President issued a
memorandum on Transparency and Open Government on January 21, 2009. The
memorandum instructed OMB to issue an Open Government Directive.

In December 2009, OMB issued instructions on the specific steps Federal agencies
needed to take to implement the Open Government Directive. OMB’s guidance
requires Federal agencies to improve the quality of Government information, publish
Government information online, create and institutionalize a culture of open
Government, and create an enabling policy framework for open Government.

Transparency: SSA continued to develop GPRA-required Annual Performance Plans
(APP), which include the Agency’s annual performance measures and goals. Over half
of SSA’s current performance measures do not measure the Agency’s progress on
achieving its strategic goals and objectives. Many of these measures were also
identified as output-based performance measures rather than being outcome-based
measures. Outcome-based performance measures are more effective in measuring an
agency’s progress in achieving its strategic goals and objectives than output-based
performance measures. Also, while SSA defined some very specific long-term
outcomes in its strategic plan, it is difficult for the public to understand SSA’s progress in
achieving those outcomes because performance measures and related goals are not
tied to the long-term outcomes.

We also found that some of SSA’s key programs and activities were not addressed by
performance measures. Neither SSA’s Strategic Plan nor the APP contained a
performance measure to publicly track SSA’s progress in constructing a new data
center, even though the Strategic Plan states that all the Agency’s plans depend on a
strong 21st century data center to replace the aged NCC. Also, SSA does not have a
performance measure to track progress in updating its computer programs even though
its Strategic Plan notes that its IT infrastructure was resting on a foundation of aging
computer programs. The aging computer systems make it difficult to implement new
business processes and service delivery models.

Accountability: Sound internal controls help ensure the Agency is accountable to its
mission and relevant laws, regulations, and policies. Internal control comprises the
plans, methods, and procedures used to meet missions, goals, and objectives. OMB
Circular A-123, Management's Responsibility for Internal Control, requires that SSA
develop and implement cost-effective internal controls for results-oriented management.



FY 2010 IG Statement on SSA’s Major Management Challenges (A-02-11-11131)                  19
We reported a significant deficiency in SSA’s internal control over information security in
our FY 2010 Report on Management’s Assertion about the Effectiveness of Internal
Control. Specifically, SSA had not consistently complied with the policies and
procedures on periodic reassessments of the content of security access profiles.
Additionally, security permissions provided to some employees and contractors were in
excess of access required to complete their job responsibilities. Lastly, SSA’s
mainframe operating system contained configurations that increased the risk of
unauthorized access to key financial data and programs.

Accountability includes using budgeted funds efficiently. Each year, SSA transfers a
small percentage of its budget not spent during the FY (unobligated administrative
funds) to an account that funds its Information Technology Systems (ITS), which is
allowable under current law. SSA was unable to provide documentation of the return on
investment of the amounts transferred to the ITS account. Instead of transferring the
funds to the ITS account, the Agency could have obligated additional funds to complete
more CDRs and/or redeterminations, which have a record of generating tangible
program savings. The Agency should have a process in place that ensures the amount
available to transfer to ITS is the absolute minimum with a goal to process workloads
that have a proven positive return on investment.

SSA must ensure its contractors are held accountable to provide the services for which
they were contracted. SSA enters into a number of contracts and provides a number of
grants each year that help SSA obtain services and research, such as the development
and the implementation of demonstration projects, digital document services, and
research on disability and retirement issues. In FY 2010, SSA obligated over
$1.4 billion for contracts and grants.

While we found SSA received what it paid for based on the contracts we reviewed, we
also found that SSA’s oversight of contracts and grants could be improved. For
example, in one contract, services provided and costs charged to SSA did not adhere to
contract terms and applicable regulations. Noncompliance with internal controls over
project funding, contract payments, and use of subcontractors allowed these instances
to occur without timely detection. The control weaknesses resulted in an overpayment
of fixed fees and travel costs, disbursements to unauthorized subcontractors, and use of
employees who did not receive a suitability determination under the contract.

In a review of grantees funded to provide outreach and application assistance to
homeless individuals and other under-served populations, we found some of the
grantees did not meet project objectives. Also, there was a lack of adequate
documentation to support some of the awarded grant funds. SSA did not find the
unsupported costs because it did not conduct site visits to ensure grant expenditures
were allowed and supported.




FY 2010 IG Statement on SSA’s Major Management Challenges (A-02-11-11131)                20
SSA Has Taken Steps to Address This Challenge
The Agency took steps to improve its transparency and accountability in FY 2010, in
part, by implementing aspects of the Open Government Directive. It released a draft
Open Government Plan on its Open Government Website in April 2010 and invited the
public to comment on it.

SSA released a final version of its Open Government Plan in June 2010. The Plan
commits the Agency to share information the public wants from SSA. To that end, SSA
had released 22 different datasets on Data.gov as of the end of September 2010.
These datasets are accessible by the public. SSA plans to release more high value
datasets on Data.gov in FY 2011. It will also ensure that its FY 2011 APP reflects Open
Government initiatives.

SSA developed three Flagship Initiatives in response to the Open Government Directive
– the Spanish Language Retirement Estimator, Online Service Enhancement, and
Online Life Expectancy Calculator. The Online Life Expectancy Calculator was
implemented in FY 2010. The other two initiatives are planned for release in FY 2011.

SSA continued to meet the requirements of GPRA, which include the development of
strategic plans, APPs, and annual performance reports. SSA has a strategic plan in
place for FYs 2008-2013 and is developing the next version of the Plan, which will be
released in FY 2011.

The Agency continued its tradition of publicly reporting on its performance in FY 2010.
SSA has continually revised its performance measures and goals to provide the public
an indication of its performance. Continued refinements in FY 2011 would further
improve the Agency’s transparency and public accountability.

In terms of internal controls, SSA created a working group comprised of Systems,
Finance, and Operations personnel to analyze the root cause of the control failures that
resulted in the significant deficiency. This working group is developing detailed
remediation plans to address the risks caused by the control deficiencies. Senior level
management personnel will review the plans for sufficiency, timing of implementation,
and the effect on resources.




FY 2010 IG Statement on SSA’s Major Management Challenges (A-02-11-11131)               21
                                          Appendices
APPENDIX A – Acronyms

APPENDIX B – Related Office of the Inspector General Reports

APPENDIX C – Office of the Inspector General Contacts




FY 2010 IG Statement on SSA’s Major Management Challenges (A-02-11-11131)
                                                                       Appendix A

Acronyms
 ADRE             Accelerated Disaster Recovery Environment
 ALJ              Administrative Law Judge
 APP              Annual Performance Plan
 ARRA             American Recovery and Reinvestment Act of 2009
 CDI              Cooperative Disability Investigations
 CDR              Continuing Disability Review
 COBOL            Common Business Oriented Language
 DCPS             Disability Case Processing System
 DDS              Disability Determination Services
 DHS              Department of Homeland Security
 ERP              Economic Recovery Payment
 ESF              Earnings Suspense File
 EST              Extended Service Team
 FY               Fiscal Year
 GPRA             Government Performance and Results Act of 1993
 GSA              General Services Administration
 IT               Information Technology
 ITS              Information Technology Systems
 MADAM            Master Data Access Method
 NCC              National Computer Center
 OASDI            Old-Age, Survivors and Disability Insurance
 ODAR             Office of Disability Adjudication and Review
 OIG              Office of the Inspector General
 OMB              Office of Management and Budget
 PII              Personally Identifiable Information
 Pub. L. No.      Public Law Number
 ROME             Registration of Most Everyone
 SSA              Social Security Administration
 SSC              Second Support Center
 SSI              Supplemental Security Income
 SSN              Social Security Number
 SSNVS            Social Security Number Verification Service
 Treasury         Department of the Treasury
 TY               Tax Year


FY 2010 IG Statement on SSA’s Major Management Challenges (A-02-11-11131)
                                                                       Appendix B

Related Office of the Inspector General Reports
   Ma n a g e m e n t Ch a lle n g e Are a , Re p o rt Title , a n d Re p o rt
             Co m m o n Id e n tific a tio n Nu m b e r              Is s u e d
           Implement the American Recovery and Reinvestment
                             Act Effectively and Efficiently
The Social Security Administration’s Use of American Recovery
and Reinvestment Act of 2009 Funds to Administer Economic            September 30, 2010
Recovery Payments (A-06-10-10124)

Economic Recovery Payments for Social Security and
                                                                     September 24, 2010
Supplemental Security Income Beneficiaries (A-09-10-11017)

The Social Security Administration’s Hiring Under the American
                                                                     August 30, 2010
Recovery and Reinvestment Act of 2009 (A-12-10-11050)

The Social Security Administration’s Response to
Congressional Inquiry Concerning New Data Center Site                August 27, 2010
Selection (Limited Distribution) (A-14-10-20170)

Social Security Administration Computer Equipment Purchased
with American Recovery and Reinvestment Act of 2009 Funds            August 20, 2010
(A-04-10-21029)

Contractors Reporting of Jobs Created Using American
                                                                     July 28, 2010
Recovery and Reinvestment Act Dollars (A-15-10-21096)

The Social Security Administration’s Use of Site Selection
Industry Best Practices for its New Data Center (Limited             April 12, 2010
Distribution) (A-14-10-21043)

Congressional Response Report: The Social Security
Administration’s Data Center Alternatives (Limited Distribution)     April 12, 2010
(A-14-10-21095)

The Office of Disability Adjudication and Review's Staffing
Plans Under the American Recovery and Reinvestment Act               December 31, 2009
(A-12-09-29140)

Disability Determination Services' Staffing Under the American
                                                                     December 22, 2009
Recovery and Reinvestment Act (A-07-09-29156)




FY 2010 IG Statement on SSA’s Major Management Challenges (A-02-11-11131)              B-1
   Ma n a g e m e n t Ch a lle n g e Are a , Re p o rt Title , a n d        Re p o rt
             Co m m o n Id e n tific a tio n Nu m b e r                     Is s u e d
Impact of State Budget Issues on the Social Security
                                                                       November 18, 2010
Administration's Disability Programs (A-01-10-11006)

The Office of Operations' Staffing Plans Under the American
                                                                       November 17, 2009
Recovery and Reinvestment Act of 2009 (A-09-09-29157)

American Recovery and Reinvestment Act of 2009 Data
                                                                       October 30, 2009
Quality Reviews (A-15-10-21045)

Office of Acquisition and Grants' Staffing to Process American
Recovery and Reinvestment Act of 2009 Acquisitions                     October 28, 20009
(A-15-10-11011)




FY 2010 IG Statement on SSA’s Major Management Challenges (A-02-11-11131)                B-2
   Ma n a g e m e n t Ch a lle n g e Are a , Re p o rt Title , a n d         Report
             Co m m o n Id e n tific a tio n Nu m b e r                      Issued
         Reduce the Hearings Backlog and Prevent its Recurrence

Disability Impairments on Cases Most Frequently Denied by
Disability Determination Services and Subsequently Allowed by          August 20, 2010
Administrative Law Judges (A-07-09-19083)

Congressional Response Report: The Office of Disability
Adjudication and Review’s 2013 Pending Hearings Backlog                July 14, 2010
Plan (A-12-10-20114)

Congressional Response Report: Office of Disability
Adjudication and Review Hearing Request Dismissals                     July 14, 2010
(A-07-10-21049)

Congressional Response Report: Scheduled Hearings
                                                                       April 22, 2010
(A-12-10-20154)

Congressional Response Report: Hearing Office Backlogs in
                                                                       March 1, 2010
Missouri (A-12-10-21039)

Hearing Office Performance and Staffing (A-12-08-28088)                February 1, 2010

Congressional Response Report: Hearing Office Disposition
                                                                       January 14, 2010
Rates (A-07-10-21015)




FY 2010 IG Statement on SSA’s Major Management Challenges (A-02-11-11131)                B-3
   Ma n a g e m e n t Ch a lle n g e Are a , Re p o rt Title , a n d          Report
             Co m m o n Id e n tific a tio n Nu m b e r                       Issued

             Improve the Timeliness and Quality of the Disability Process

Administrative Costs Claimed by the Kansas Disability
                                                                       September 28, 2010
Determination Services (A-07-09-19093)

Compassionate Allowance Initiative (A-01-10-21080)                     August 6, 2010

Congressional Response Report: The Social Security
Administration’s Disability Programs and Changes in Society            July 14, 2010
(A-01-09-19028)

Administrative Costs Claimed by the Florida Division of
                                                                       June 28, 2010
Disability Determinations (A-15-10-11051)

Congressional Response Report: Disability Determination
                                                                       May 28, 2010
Services Medical Consultant Assessments (A-01-10-11007)

Plan to Achieve Self-Support Program (A-01-09-19034)                   May 18, 2010

Congressional Response Report: Reinstatement of the
Reconsideration Step in the Michigan Disability Determination          April 22, 2010
Services (A-01-10-20153)

Full Medical Continuing Disability Reviews (A-07-09-29147)             March 30, 2010

Administrative Costs Claimed by the Arizona Disability
                                                                       March 8, 2010
Determination Services (A-09-09-19020)

Alabama Disability Determination Service's Business Process
                                                                       February 17, 2010
for Adjudicating Disability Claims (A-08-09-29163)

Military Service Casualty Cases (A-01-09-29056)                        December 17, 2009




FY 2010 IG Statement on SSA’s Major Management Challenges (A-02-11-11131)               B-4
    Ma n a g e m e n t Ch a lle n g e Are a , Re p o rt Title a n d          Report
             Co m m o n Id e n tific a tio n Nu m b e r                      Issued

 Reduce Improper Payments and Increase Overpayment Recoveries

Controls over Single Payment System Payments
                                                                      September 30, 2010
(A-02-09-29123)

Congressional Response Report: The Social Security
Administration’s Process for Identifying and Preventing
                                                                      September 28, 2010
Improper Payments to Individuals Who Return to Work
(A-01-11-21043)

Supplemental Security Income Overpayment Notices Not Sent
                                                                      August 30, 2010
(A-01-09-19037)

Disability Insurance and Supplemental Security Income Claims
                                                                      July 16, 2010
Approved in 2006 But Not Paid (A-01-10-11009)

Retroactive Title II Payments to Released Prisoners
                                                                      July 14, 2010
(A-06-08-38081)

Follow-up: Pending Workers' Compensation (A-08-09-19167)              July 12, 2010

Follow-up: The Social Security Administration’s Controls over
the Old-Age, Survivors and Disability Insurance Overpayment           July 1, 2010
Waiver Approval Process (A-13-09-19040)

Manual Computations of Supplemental Security Income
                                                                      June 25, 2010
Payments (A-07-09-19060)

Congressional Response Report: Martinez Settlement Benefits
Withheld Under the No Social Security Benefits for Prisoners          May 28, 2010
Act of 2009 (A-01-10-20112)

Controls Over Changes Made to Direct Deposit Routing
                                                                      Mach 26, 2010
Numbers (A-02-08-28052)

Follow-up: The Social Security Administration’s Controls over
                                                                      March 24, 2010
the Write-Off of Title XVI Overpayments (A-04-09-19138)

Congressional Response Report: The Good Cause Provision
                                                                      March 17, 2010
Under the Fugitive Felon Program (A-01-10-21052)




FY 2010 IG Statement on SSA’s Major Management Challenges (A-02-11-11131)               B-5
    Ma n a g e m e n t Ch a lle n g e Are a , Re p o rt Title a n d          Report
             Co m m o n Id e n tific a tio n Nu m b e r                      Issued
The Accuracy of the Garnishment of Title II Benefits by the
Social Security Administration's Court Ordered Garnishment            January 15, 2010
System (A-15-09-19063)

Supplemental Security Income Recipients Eligible for Veterans
                                                                      January 6, 2010
Benefits (A-01-09-19031)

Supplemental Security Income Payments to Parents or
                                                                      December 28, 2009
Relatives Not Supporting Children (A-01-09-29113)

Congressional Response Report: The Social Security
Administration's Fugitive Felon Program and the Martinez              October 15, 2009
Settlement Agreement (A-01-09-29177)




FY 2010 IG Statement on SSA’s Major Management Challenges (A-02-11-11131)                B-6
   Ma n a g e m e n t Ch a lle n g e Are a , Re p o rt Title a n d          Re p o rt
             Co m m o n Id e n tific a tio n Nu m b e r                     Is s u e d
                             Improve Customer Service

Safe Haven, A Fee-for-Service Representative Payee for the
                                                                     September 21, 2010
Social Security Administration (A-07-10-21062)

Benefits Payable to Child Beneficiaries Who No Longer Need
                                                                     August 20, 2010
Representative Payees (A-09-29116)

Representative Payees Reporting Criminal Convictions
                                                                     June 17, 2010
(A-13-09-19145)

Benefit Payments Managed by Representative Payees of
                                                                     June 17, 2010
Children in Foster Care (A-13-07-17137)

2010 Cost-of-Living Adjustment Notices with Incorrect Payment
                                                                     June 17, 2010
Dates (A-02-10-20107)

Organizational Representative Payee in Ohio (A-05-08-48109)          June 17, 2010

Congressional Response Report: The Social Security
Administration’s Oversight of Employer Representative Payees         May 28, 2010
(A-13-10-20125)

Mission-Critical Occupation Core Competencies
                                                                     May 26, 2010
(A-13-08-28099)

Old-Age, Survivors and Disability Insurance Benefit Payments
                                                                     May 6, 2010
Sent to Non-Bank Financial Service Providers (A-06-09-29090)

Aged Beneficiaries in Need of Representative Payees
                                                                     April 5, 2010
(A-09-09-29002)

An Individual Representative Payee for the Social Security
                                                                     March 31, 2010
Administration in Los Angeles, California (A-15-09-19150)

Field Office Post-Entitlement Workload Statistics
                                                                     March 25, 2010
(A-04-10-21047)

Congressional Response Report: Representative Payees Who
Employ Beneficiaries or Provide Employment Services                  March 19, 2010
(A-13-10-11013)




FY 2010 IG Statement on SSA’s Major Management Challenges (A-02-11-11131)                B-7
   Ma n a g e m e n t Ch a lle n g e Are a , Re p o rt Title a n d          Re p o rt
             Co m m o n Id e n tific a tio n Nu m b e r                     Is s u e d
The Social Security Administration's Hiring and Training of
                                                                     March 15, 2010
Information Technology Specialists (A-13-09-19082)

Sunshine Payee Corporation, a Fee-for-Service Representative
Payee for the Social Security Administration                         February 5, 2010
(A-08-09-29106)




FY 2010 IG Statement on SSA’s Major Management Challenges (A-02-11-11131)                B-8
   Ma n a g e m e n t Ch a lle n g e Are a , Re p o rt Title a n d Re p o rt
             Co m m o n Id e n tific a tio n Nu m b e r            Is s u e d
       Invest in Information Technology Infrastructure to Support
                           Current and Future Workloads
The Social Security Administration’s Disaster Preparedness
                                                                     August 13, 2010
(Limited Distribution) (A-14-10-20116)

The Social Security Administration’s Second Support Center
Disaster Recovery Capability (Limited Distribution)                  July 22, 2010
(A-14-10-30110)

The Social Security Administration’s Post-Implementation
                                                                     June 22, 2010
Review Process (A-14-10-30105)

Conversion of the Social Security Administration’s Legacy File
                                                                     May 13, 2010
Management System (A-14-09-19097)

Fiscal Year 2009 Evaluation of the Social Security
Administration's Compliance with the Federal Information             November 17, 2009
Security Management Act (A-14-09-19047)




FY 2010 IG Statement on SSA’s Major Management Challenges (A-02-11-11131)              B-9
    Ma n a g e m e n t Ch a lle n g e Are a , Re p o rt Title a n d         Re p o rt
              Co m m o n Id e n tific a tio n Nu m b e r                    Is s u e d
 Strengthen the Integrity and Protection of the Social Security Number

Congressional Response Report: The Social Security
Administration’s Cost Estimates for the Consent Based Social          September 30, 2010
Security Number Verification Program (A-03-10-21060)

The Social Security Administration’s Risk of Making Payments
to Persons Who Commit, Threaten to Commit, or Support                 September 27, 2010
Terrorism (A-08-10-20131)

Kindergarten Through 12th Grade Schools' Collection and Use
                                                                      July 22, 2010
of Social Security Numbers (A-08-10-11057)

Controls over the Flexiplace Program and Personally
                                                                      June 9, 2010
Identifiable Information at Hearing Offices (A-08-09-19079)

Individuals Receiving Social Security Cards After Benefits Have
                                                                      March 26, 2010
Been Suspended (A-09-09-29004)

Prisoners' Access to Social Security Numbers (A-08-10-11042)          March 12, 2010

The Social Security Administration's Compliance with Social
Security Number Replacement Card Issuance Provisions of the
                                                                      March 4, 2010
Intelligence Reform and Terrorism Prevention Act of 2004
(A-02-09-19006)

The Social Security Administration's Implementation of the
                                                                      January 6, 2010
E-Verify Program for New Hires (A-03-09-29154)




FY 2010 IG Statement on SSA’s Major Management Challenges (A-02-11-11131)                B-10
   Ma n a g e m e n t Ch a lle n g e Are a , Re p o rt Title a n d          Re p o rt
             Co m m o n Id e n tific a tio n Nu m b e r                     Is s u e d
                  Improve Transparency and Accountability

The Social Security Administration’s Plan to Reduce Improper
                                                                     September 30, 2010
Payments Under Executive Order 13520 (A-15-10-20163)

Congressional Response Report: Training Expenditures at the
                                                                     September 30, 2010
Social Security Administration (A-05-10-10118)

Congressional Response Report: Political Appointees’ Role in
the Social Security Administration’s Freedom of Information Act      September 17, 2010
Requests (A-15-10-20185)

Delivery Order with Softmart Government Services, Inc. for
                                                                     September 17, 2010
Microsoft Licensing and Maintenance (A-06-10-11019)

Contract Audit of Hewlett Packard (A-04-10-11012)                    September 15, 2010

The Social Security Administration’s Use of Limitation on
                                                                     September 1, 2010
Administrative Expenses Funds (A-15-10-21085)

Performance Indicator Audit: Environmental Management
                                                                     August 11, 2010
System (A-15-10-11072)

Administrative Leave Use (A-06-09-29133)                             July 23, 2010

CESSI, Division of Axiom Resource Management, Inc., Indirect
Cost Rate Proposals for Fiscal Years 2007 and 2008 (Limited           July 16, 2010
Distribution) (A-15-10-21088)

Homeless Outreach Projects and Evaluation Demonstration
                                                                      July 2, 2010
Project (A-03-09-19073)

Management Advisory Report: Single Audit of the State of Ohio
                                                                      June 17, 2010
for the Fiscal Year Ended June 30, 2008 (A-77-10-00012)

Management Advisory Report: Single Audit of the Michigan
Department of Human Services for the 2-Year Period Ending             June 17, 2010
September 30, 2008 (A-77-10-00011)

Congressional Response Report: Off-site Training Conferences
                                                                      May 26, 2010
(A-05-10-21035)

Trust Fund Projections (A-15-10-20134)                                May 26, 2010



FY 2010 IG Statement on SSA’s Major Management Challenges (A-02-11-11131)                B-11
   Ma n a g e m e n t Ch a lle n g e Are a , Re p o rt Title a n d          Re p o rt
             Co m m o n Id e n tific a tio n Nu m b e r                     Is s u e d
Management Advisory Report: Single Audit of the State of
Delaware for the Fiscal Year Ended June 30, 2008                      May 18, 2010
(A-77-10-00010)

Management Advisory Report: Single Audit of the State of
Connecticut for the Fiscal Year Ended June 30, 2008                   May 18, 2010
(A-77-10-00009)

Management Advisory Report: Single Audit of the State of
Colorado for the Fiscal Year Ended June 30, 2008                      May 18, 2010
(A-77-10-00008)

Management Advisory Report: Single Audit of the State of
Arizona for the Fiscal Year Ended June 30, 2008                       May 14, 2010
(A-77-10-00007)

Congressional Response Report: The Social Security
                                                                      May 7, 2010
Employees’ Activities Association, Inc. (A-06-10-11028)

Management Advisory Report: Single Audit of the State of
Illinois for the Fiscal Year Ended June 30, 2008                      March 26, 2010
(A-77-10-00005)

Management Advisory Report: Single Audit of the State of
Maine for the Fiscal Year Ended June 30, 2008                         March 25, 2010
(A-77-10-00006)

The Social Security Administration’s Government Purchase
                                                                      March 25, 2010
Card Program (A-13-09-29027)

The Social Security Administration's Contract with Bankers
Business Management Services, Inc., Contract Number                   March 18, 2010
SS00-08-60085 (A-15-09-19148)

Management Advisory Report: Single Audit of the State of New
York for the Fiscal Year Ended March 31, 2008                         March 12, 2010
(A-77-10-00004)

Management Advisory Report: Single Audit of the
Commonwealth of Pennsylvania for the Fiscal Year Ended June           March 8, 2010
30, 2008 (A-77-10-00003)




FY 2010 IG Statement on SSA’s Major Management Challenges (A-02-11-11131)                B-12
   Ma n a g e m e n t Ch a lle n g e Are a , Re p o rt Title a n d          Re p o rt
             Co m m o n Id e n tific a tio n Nu m b e r                     Is s u e d
Management Advisory Report: Single Audit of the State of
Texas for the Fiscal Year Ended August 31, 2008                       February 12, 2010
(A-77-10-00002)

Management Advisory Report: Single Audit of the
Commonwealth of Massachusetts for the Fiscal Year Ended               February 12, 2010
June 30, 2008 (A-77-10-00001)

Contract with Mathematica Policy Research, Inc., for Services
to Evaluate Youth Transition Demonstration Projects                   December 29, 2009
(A-06-09-19061)

Congressional Response Report: San Francisco Regional
                                                                      December 28, 2009
Management Training Forum (A-05-09-29174)

Fiscal Year 2009 Financial Statement Audit (A-15-09-19124)            November 9, 2009

Fiscal Year 2009 Inspector General Statement on the Social
Security Administration's Major Management and Performance            November 6, 2009
Challenges (A-02-09-19175)




FY 2010 IG Statement on SSA’s Major Management Challenges (A-02-11-11131)                B-13
                                                                       Appendix C

Office of the Inspector General Contacts
Brian Karpe, Director                         Implement the American Recovery and
                                              Reinvestment Act Effectively and
                                              Efficiently
                                              Invest in Information Technology
                                              Infrastructure to Support Current and
                                              Future Workloads
Walter Bayer, Director                        Reduce the Hearings Backlog and Prevent
                                              its Recurrence
Mark Bailey, Director                         Improve the Timeliness and Quality of the
                                              Disability Process
Ron Gunia, Director                           Reduce Improper Payments and Increase
Judith Oliveira, Director                     Overpayment Recoveries
Jim Klein, Director                           Improve Customer Service
Shirley Todd, Director
Kim Byrd, Director                            Strengthen the Integrity and Protection of
Cylinda McCloud-Keal, Director                the Social Security Number

Tim Nee, Director                             Improve Transparency and Accountability
Victoria Vetter, Director


For additional copies of this report, please visit our Website at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-02-11-11131.




FY 2010 IG Statement on SSA’s Major Management Challenges (A-02-11-11131)
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
